        Department of the Interior
        Office of Inspector General



    Audit Report




Bureau of Indian Education
Background Investigations

                Q-IN-BIA-0005-2007
                         April 2008
                       United States Department of the Interior
                                 OFFICE OF INSPECTOR GENERAL
                                           Washington, D.C. 20240


                                                                                   April 25, 2008
Memorandum

To:              Secretary Kempthorne

From:           Earl E. Devaney
                Inspector General

Subject:        Final Audit Report, Bureau of Indian Education Background Investigations (Report
                No. Q-IN-BIA-0005-2007)

   This final report presents the results of our audit to determine if employees and other individuals
who have regular contact with, or control over, children at Indian education facilities have had the
required background checks. Our audit disclosed that the required background checks were not always
conducted. Specifically, based on a statistical sample of employees working for the Bureau of Indian
Education (BIE), we estimate that 76 percent of the BIE security files contained material errors. For
example:

      ¾ Federal Bureau of Investigation (FBI) fingerprint checks were not conducted for 6 percent of
        BIE employees hired since January 1, 2004.

      ¾ Character background checks were not conducted for 5 percent of employees hired since
        January 1, 2004.

      ¾ Required background reinvestigations were not conducted for 60 percent of BIE employees
        with over 5 years on the job.

    Additionally, we visited 18 non-BIE operated residential facilities and found that employee files
did not always support complete background checks. For example:

      ¾ FBI fingerprint checks were not conducted for 43 percent of the individuals included in our
        sample.

      ¾ Character background checks were not conducted for 77 percent of the individuals included in
        our sample.

    In response to our draft report, the Department concurred with the five recommendations and took
immediate actions to address the deficiencies identified in the report. We consider all five
recommendations to be resolved. However, recommendations 1, 4, and 5 are not fully implemented.
Since we consider all five recommendations to be resolved, no response to OIG on this report is
necessary.
    The legislation, as amended, creating the Office of Inspector General requires that we report to
Congress semiannually on all reports issued, actions taken to implement our recommendations, and
recommendations that have not been implemented.

      If you have any comments or questions regarding this report, please call me at (202) 208-5745.

cc:      Assistant Secretary for Indian Affairs
         Director, Bureau of Indian Education
         Focus Leader for Management Control and Audit Follow-up
         Associate Director for Finance, Policy and Operation
                                      TABLE OF CONTENTS
INTRODUCTION ................................................................................................................. 1
         Background ................................................................................................................................. 1

         Legal Requirements .................................................................................................................... 1

         Prior Audit Coverage ................................................................................................................. 2

         Statistics – Why Background Checks are Important .............................................................. 3

RESULTS OF AUDIT ........................................................................................................... 4
         BIE Operated Facilities .............................................................................................................. 4

         Non-BIE Operated Facilities ..................................................................................................... 5

         Inadequate Adjudications .......................................................................................................... 6

         BIE Oversight of Non-BIE Operated Facilities ....................................................................... 9

EVALUATION OF MANAGEMENT COMMENTS ................................................................ 10
RECOMMENDATIONS ...................................................................................................... 11
APPENDICES .................................................................................................................... 15
         1. Objective, Scope, and Methodology .................................................................................. 15

         2. Investigations of BIE Employees ....................................................................................... 17

         3. Investigations of BIE Employees Hired Since January 1, 2004...................................... 18

         4. BIE Facilities Visited .......................................................................................................... 19

         5. Material Errors at Non-BIE Residential Facilities Visited ............................................. 20

         6. Material Errors in BIE Employee Security Files Reviewed ........................................... 24

         7. Acronyms and Abbreviations ............................................................................................ 26

         8. Status of Audit Recommendations .................................................................................... 27

         9. Department Response ......................................................................................................... 28
                                         INTRODUCTION
This report presents the results of our audit of background investigations conducted at Bureau of
Indian Education (BIE) operated education facilities and non-BIE operated residential education
facilities. The objective of our audit was to determine if employees and other individuals who have
regular contact with, or control over, children at Indian education facilities have had the required
background checks.

                                                     Background
BIE (formerly Bureau of Indian Affairs, Office of Indian Education Programs) was established in the
latter part of the nineteenth century to carry out the federal government’s education commitment to
Indian tribes. BIE is the only national education system for American Indian children and has
responsibility for 184 elementary and secondary schools as well as peripheral dormitories. Schools
and dormitories are located on 63 reservations located in 23 states across the United States serving
approximately 60,000 students representing 238 different tribes.

BIE provides a wide-range of educational programs and services. Educational programs are provided
either directly by BIE or through grants and contracts to tribes who choose to operate the programs
themselves. There are 24 Education Line Offices, located throughout the United States, charged with
providing educational leadership and assistance to the schools and tribes within their agencies and
areas. The responsibilities of the Education Line Offices vary, depending on the needs of the schools
within their jurisdiction. Education Line Officers supervise principals at the BIE operated schools or
are grant officers for the schools operated by tribes or tribal organizations.

                                               Legal Requirements
The Victims of Child Abuse Act of 1990 prescribes for any federal agency (including BIE) or non-
federal agency operated under contract with the federal government (including tribally run schools
operated under grant agreements) that all individuals hired to work with Indian children undergo a
Federal Bureau of Investigation (FBI) fingerprint check. Department of the Interior (DOI),
Departmental Manual 441 expands this to require the check be completed prior to the individual being
hired.

The Indian Child Protection and Family Violence Prevention Act prescribes for the Bureau of Indian
Affairs (BIA)1 that all individuals hired by BIA to work with Indian students undergo an investigation
of their character. DOI Departmental Manual 441 expands this to require that re-investigations be
completed every 5 years. Additionally, the Manual goes on to state that the required character
investigation for employees who have contact with or control over Indian children is a Child Care
Agency National Check with Written Inquiries (CNACI). The scope of the CNACI that constitutes a
1
  The Office of Indian Education Programs (OIEP) was part of BIA at the time of the legislation. However, since then, a
new bureau – BIE – was formed. Therefore, although the law prescribes these activities to BIA, it is actually BIE that is the
responsible organization.



                                                             1
complete character investigation includes:

   1.   Employment: 5 years
   2.   Education: 5 years and highest degree verified
   3.   Residences: 3 years
   4.   References (not mandatory)
   5.   Law Enforcement: 5 years
   6.   State criminal repository checks for all states of residence

Finally, the Indian Child Protection and Family Violence Prevention Act prescribes a qualified and
trained security official be designated to adjudicate the results of the character investigation.

The Indian Child Protection and Family Violence Prevention Act requires that all Indian tribes or tribal
organizations receiving funds under the authority of the (1) Indian Self-Determination and Education
Assistance Act or the (2) Tribally Controlled Schools Act of 1988 must:

        Conduct a background investigation for individuals whose duties and responsibilities would
        allow them regular contact with or control over Indian children.

        Employ only individuals who meet standards of character that are no less stringent than those
        prescribed for the BIA.

The BIE Security Office in Albuquerque, NM centrally performs the required background checks for
all BIE employees or individuals being granted access to children at BIE operated facilities. Once
results of the background checks are received, the BIE Security Office adjudicates, or decides, whether
the individual is suitable to work with children. Responsibility for conducting the background checks
and adjudicating the results at the non-BIE operated facilities rests with individual facilities.

                                       Prior Audit Coverage
In March 2004, the Office of Inspector General (OIG) issued Report of Audit, “Improvements Needed
in the Bureau of Indian Affairs’ Process for Conducting Background Investigations of Indian
Education Employees.” This audit was limited to BIA operated facilities. The report concluded that
BIA's background investigation process was not ensuring that unsuitable individuals were prevented
from having contact with children. Specifically:

        Local law enforcement checks were seldom completed before an individual was hired, and the
        initiation of these checks was not timely.

        FBI fingerprint and name checks were not always completed before an employee was hired.

        Termination of employees deemed unsuitable was not always performed in a timely manner.

        Comparison of employee records to investigation records showed that some employees may
        have not been investigated.




                                                     2
                   Statistics – Why Background Checks are Important
In October 2007, the Associated Press reported that a California lawyer who has spent 30 years
investigating misconduct in schools stated, “From my own experience … I think every single school
district in the nation has at least one perpetrator. At least one.” The Associated Press went on to report
that over 2,500 educators were punished for sexual misconduct from 2001 to 2005. For example, a
teacher in Iowa admitted sexual misconduct against a fifth-grader. However, that teacher did not lose
his teaching license until 40 years after the first accusation.

Some cases investigated by the Associated Press could have been prevented with an FBI fingerprint
check, mandatory at Indian educational facilities. For example, in 1984, a teacher was sent to prison
for sexually molesting a third-grader. After serving his prison term, he went on to get four more
teaching jobs. He did not stop teaching until 1997 and his teaching license was not finally revoked
until 15 years after he molested the third-grader. An FBI fingerprint check could have stopped this
teacher from circulating in the school system. However, the Associated Press reported that 16 states
do not require fingerprinting. A worker in the teacher certification office in one of those states stated
that her office receives anonymous calls from people asking if the state does a background check on
applicants. When she tells them no, they hang up. She felt certain the callers then applied for teaching
jobs in the state. “We’re deceiving ourselves if we don’t think there are perverts,” she said.

The number of instances nationally of reported abuse in public schools averages nearly three for every
school day. However, studies estimate that only 1 in 10 victims report the abuse. The Associated
Press study found that of the approximately 2,500 cases where educators were punished for sexual
misconduct between 2001 to 2005, students were clearly identified as the victim of the sexual
misconduct in almost 1,500 cases. However, there were criminal convictions in only about 54 percent
of the cases.

The FBI reported in March 2006 that, during the period covering fiscal years 2003 through 2006, it
initiated 1,658 investigations and made 537 arrests in matters involving Indian child sexual abuse.
During the same period, it initiated 134 investigations and made 39 arrests in matters involving Indian
child physical abuse. This represented approximately 30 percent of all FBI investigations in Indian
Country during that period.




                                                    3
                                 RESULT
                                  E   TS OF AUDIT
                                                T
Employees and other individuals whho have reguular contact with,w    or conttrol over, chhildren at Inddian
education faacilities havee not had thee required baackground chhecks.



                                                 BIE Opeerated Faccilities
We revieweed a statisticaal sample off 1,199 (27 percent) of thhe 4,501 empployees workking for BIE E as of
May 2007. See Append   dix 1 for a deetailed explanation of thee statistical sampling
                                                                             s        sellection and
evaluation methodology
           m            y. Based on our statisticaal sample, we
                                                              w estimated that (See Fiigure 1):
                                                                                                         No
                                                                                                    Investigation
                                                                              Appropriatelyy
                                                                                                        File
                                                                              Investigated
                                                                                                        2%
                                                                                  22%
            2 percent of BIE employyees had no
            s
            security file documentingg an
            i
            investigationn.

            776 percent off BIE emplooyees had
             s
             security filess containing material
             e
             errors in the investigationn                                                                              estigation
                                                                                                                    Inve
             c
             conducted.                                                                                              Coontained
                                                                                                                       Errors
                                                                                                                       E
                                                                                                                        76%

         Seee Appendix 2 for full resuults.
                                                                          Figure 1: In
                                                                                     nvestigations of
                                                                                                   o BIE Employyees



                 Appropriately
                 Investigated
                                      No
                                            on
                                 Investigatio
                                                                     We found that thhe situation had worseneed since
                     7%              File
                                     2%
                                                                     our 2004 audit of o BIE emplooyees working in
                                                                     residdential faciliities. Based on our statisstical
                                                                     sam
                                                                       mple, we estim  mated that (SSee Figure 2):
                                                                                                                2

                                                                             2 percennt of 821 empployees hired since
                                                                             January 1, 2004, hadd no securityy file
                                                                             documennting an inveestigation.

                                                 Investigation               91 perceent of these employees
                                                                                                   e          had
                                                  Contained
                                                    Errors                   security files containning material errors
                                                     91%
                                                                             in the invvestigation conducted.
                                                                                                   c

  Figure 2: IInvestigations of BIE Emplooyees Hired                          See Appeendix 3 for full
                                                                                                 f results.
                   Since 20
                          004 Audit                                                                                                 .


                                                                 4
Material errors in the investigations included lack of required FBI fingerprint checks, absence of
character background checks, and absence of reinvestigations for employees with over 5 years on the
job. For example, based on our statistical sample, we estimated that:

           FBI fingerprint checks were not conducted for 6 percent of BIE employees hired since January
           1, 2004.

           Character background checks were not conducted on 5 percent of BIE employees hired since
           January 1, 2004.

           Reinvestigations were not conducted on 60 percent of BIE employees with more than 5 years
           on the job.
                                                                         See Appendix 6 for full results.

We performed site work at 15 BIE operated residential facilities. We did not review employee files at
the facilities since we had already reviewed a statistical sample of all BIE employees. We also found
that facilities did not always initiate local tribal law enforcement checks as required. Additionally, we
found that facility personnel were not always being informed by the BIE Security Office when
background checks were completed and individuals could have unsupervised access to children.



                                         Non-BIE Operated Facilities
We selected a non-statistical sample of 18 non-BIE operated residential facilities.2 During site visits,
we reviewed a non-statistical sample of 295 of 1,659 (18 percent) employee files. We found that
employee files did not support that complete background investigations were conducted (See Figure
3). Specifically:
                                                                 100%

           72 percent - prior employers were not                                       83%
           contacted.                                             80%
                                                                            72%
           83 percent - personal references were not
           contacted.                                             60%
           25 percent - local tribal law enforcement                                                                        43%
           checks were not initiated.                             40%                                                33%
           28 percent - other local law enforcement                                          25%
                                                                                                         28%
           checks were not initiated.
                                                                  20%
           33 percent - state law enforcement checks
           were not initiated.
           43 percent - FBI fingerprint checks were not           0%
                                                                           References Not    Law Enforcement Checks Not       FBI
                                                                            Interviewed                Initiated           Fingerprint
           conducted. Four of the 18 non-BIE facilities                                                                    Checks Not
                                                                                                                           Conducted
           did not conduct FBI fingerprint checks at all.
                                                                   Figure 3: Investigations of Individuals Working at
                                                                             non-BIE Operated Facilities
           Appendix 5 provides full results by facility.

2
    This sample included one “cooperative” facility. Cooperative facilities have both BIE and non-BIE employees.



                                                             5
Because of the problems we identified, it was impossible for either BIE or the non-BIE operated
residential facilities we visited to support that all individuals with regular contact or control over
Indian students had characters and/or backgrounds suitable for working with children. We found that
individuals were often allowed access to children prior to completion of the required FBI fingerprint
check. Specifically, we found that, of the FBI fingerprint checks conducted:

       54 percent of the BIE employees in our statistical sample (hired since January 1, 2004) began
       working with Indian students prior to completion of the FBI fingerprint check. Of these
       employees, 73 percent were later found to have a criminal record. See Appendix 6.

       83 percent of the employees in our non-statistical sample at non-BIE operated facilities had
       their FBI fingerprint checks completed after they began working with Indian students.
       Eighteen percent of these employees were later found to have a criminal record. See Appendix 5.

The material errors in the background process could result in individuals with serious violent crimes
having unsupervised access to Indian children. A recent Department of Health and Human Services
review of the Navajo Head Start program discovered a similar situation. The Head Start program had
not conducted background investigations for any employees from 2001 to 2005. In October 2005, the
Head Start program finally ran FBI fingerprint checks for approximately 81 percent of its employees.
This check identified that approximately 16 percent of the employees had criminal records. The
criminal records included first degree murder, assault, child abuse, driving under the influence, and
other violent crimes, making them clearly unsuitable to work with Indian children. Given the lack of
background investigations supporting otherwise, it is possible that a similar situation exists at BIE and
non-BIE operated facilities and violent criminals are being given unrestricted access to Indian children.

Further, multiple facilities had contracted specialists (such as speech therapist and reading tutors)
working with students at their facilities. However, we found that background investigations were not
always being completed for these contract workers. For example, at one BIE operated facility visited,
we identified 14 contracted specialists. Our review found that 6 of the 14 contractors did not have
background investigations conducted.




                                    Inadequate Adjudications
Even when background investigations were conducted, we identified problems with the adjudication
process. The Indian Child Protection and Family Violence Prevention Act requires a qualified and
trained security official be designated to adjudicate the results of the character investigation. However,
we found that adjudication of information received from character investigations was not always
performed. When adjudications were performed, they were not timely and decisions were poorly
documented. Further, when information was received after adjudication, individuals were not re-
evaluated to determine their continued suitability for working with children.


                                                    6
We found that adjudications were not completed for:

        19 percent of the statistically sampled BIE employees. See Appendix 6.

        90 percent of the non-statistically sampled individuals working at the six non-BIE residential
       facilities where background investigations were completed. See Appendix 5.

As a result, individuals with questionable backgrounds were hired. For example, one non-BIE facility
we visited in South Dakota performed no character background investigations and no adjudications on
the FBI fingerprint reports. Our review of 20 sample employees identified:

       2 had no security file at all.
       3 had a security file but the file contained no background documentation.
       8 had no FBI fingerprint report.
       7 had FBI fingerprint reports and all 7 revealed criminal records.

These criminal records included such crimes as assault and battery, domestic violence, domestic
assault, arson, furnishing liquor to a minor, distribution of marijuana, resisting arrest, and driving
under the influence. Jobs held by the individuals reviewed included teacher, dorm attendant, bus
driver, cook, and recreation department worker. For this specific facility, we were unable to determine
why the individuals were hired because the official responsible for performing the background check
and adjudicating individuals resigned between the time we notified her of our visit and our arrival at
the facility.

When adjudications were performed, they were not timely and decisions were poorly documented.
Specifically, it took the BIE Security Office, on average (See Appendix 6 for full results):

       154 days to adjudicate character background investigations received.
       269 days to complete all background activities associated with hiring an employee.
       242 days to adjudicate 5 year character background reinvestigations received.

Further, even when adjudications were finally completed, BIE did not notify the facilities of the
adjudication decision 65 percent of the time.

Although individuals may be provisionally hired after completion of their FBI fingerprint check, but
before completion of full background investigation, provisional hires are not allowed to be alone with
children until a favorable adjudication is granted. However, because of (a) the amount of time it took
for adjudication decisions to be documented and (b) the lack of notification of adjudication decisions,
the BIE-operated facilities we visited informed us that after a few weeks they stopped supervising
provisional hires and allowed them unrestricted access to Indian children. As a result, we identified
individuals being accused of abuse who should not have had unsupervised access to children. For
example:

       An Education Technician at a BIE-operated facility hired in November 2006 was accused of
       sexually abusing a student in January 2007. According to the accusation, the abuse occurred



                                                   7
       when the employee was driving the student, unsupervised, to sports practice. However, the
       BIE Security Office did not adjudicate the individual’s background until July 2007. Therefore,
       the individual should not have been alone with the student when the alleged abuse occurred.

       A Teacher at a BIE-operated facility hired in August 2006 was accused of a verbal and three
       physical abuse charges against students at the school since being hired. There was no other
       information in the file on the accusations. However, the BIE Security Office had still not
       adjudicated the individual’s background as of our review in October 2007.

Additionally, adjudication decisions were poorly documented resulting in individuals with
questionable backgrounds working at facilities. For example, at a non-BIE operated residential facility
in Arizona we identified a School Nurse who in:

       February 2006 was arrested, and ultimately incarcerated, for driving under the influence.

       October 2006 was hired despite numerous arrests for alcohol related incidents.

       February 2007 was adjudicated as “suitable to work with children.”

       August 2007 was suspended without pay for 5 days for violating the facility’s policy for use of
       alcohol and intoxication in the workplace. The individual was on official business transporting
       students and became so intoxicated he had to be taken to a hospital. As a result, another
       individual had to assume the responsibility of transporting students back to the school.

The adjudication document did not state why the adjudicator believed the criminal history posed no
threat to the children. As a result, we could not effectively evaluate the facility’s original adjudication
decision. Further, we found no evidence the facility re-adjudicated the employee’s continued
suitability of working with children following the incident.

When information was received after adjudication, individuals were not re-evaluated to determine their
continued suitability for working with children. For instance:

       A Food Service Worker at a non-BIE operated facility in New Mexico, hired in February 2001,
       was favorably adjudicated. A tribal law enforcement report received after adjudication
       indicated the employee was charged with six counts of endangering the welfare of a minor.
       However, while the facility filed the report in the employee’s security file, it failed to re-
       adjudicate the employee’s background taking into consideration the new information.

       A School Bus Driver at a BIE operated facility hired in January 2005 was favorably
       adjudicated in May 2005. A law enforcement report received following the adjudication
       indicated the employee had been:
               incarcerated for 60 days for threatening and disorderly conduct charges, and
               charged with battery, endangering the welfare of a minor, and disorderly conduct.
       While the BIE Security Office filed the report in the employee’s security file, it failed to re-
       adjudicate the employee’s background taking into consideration the new information. An
       unsigned memo in the BIE Security Office file stated that the information had been received



                                                     8
       and there were no issues affecting the original favorable adjudication. However, when we
       discussed the issue with the BIE Security Office, the assigned Security Specialist stated he did
       not know who put the unsigned memo in the file and acknowledged the employee’s suitability
       needed to be re-evaluated.



                       BIE Oversight of Non-BIE Operated Facilities
We found no BIE policies or procedures to ensure appropriate oversight over the background
investigation process at non-BIE operated residential facilities. Education Line Officers we visited
indicated they were aware of problems at the non-BIE residential facilities but were unsure of what
role they played, or what authority they had, to require the facilities to comply with the minimum
standards for conducting background investigations.




                                                   9
                EVALUATION OF MANAGEMENT
                       COMMENTS

We would like to acknowledge the seriousness with which BIE and most non-BIE operated residential
facilities took the issues identified in this report and commend the immediate actions they took to
correct the issues noted.

During the course of the audit, we issued Notices of Potential Findings (NPF) to the 18 non-BIE
operated residential facilities visited. The NPFs outlined any problems identified at each specific
facility (see Appendix 5). We received detailed responses from 9 of the facilities. Of these 9 facilities,
7 identified and outlined immediate corrective actions they were taking to correct the deficiencies
identified. Of the remaining facilities we visited, 3 acknowledged receipt of the NPF but did not
provide a detailed response of any corrective actions and 6 did not acknowledge receipt of the NPF.
Additionally, BIE provided OIG a copy of a memorandum sent, in response to the draft Audit Report,
to all grant facilities requiring each facility to come into compliance with the law and grant agreement.

Further, the BIE security office requested a detailed listing of employee files reviewed in the statistical
sample and material errors identified so they could immediately begin correcting the deficiencies we
identified.

In Management’s Response to the draft report, the Department thanked us for the audit and stated:
“BIE and the office of Human Capital Management, Center for Personnel Security (CPS) take
seriously the findings and recommendations made by your office. A strategic goal of the BIE is to
provide safe and secure schools for Indian students attending BIE funded schools and as such BIE will
aggressively bring all schools into full compliance. In conjunction with this effort on April 15, 2008,
we conducted training for all CPS staff, to introduce them to all the new policies and procedures and
reacquaint them with existing regulations. Please be assured that Indian Affairs is committed to
ensuring full compliance with the Background Investigation Program and the safety of our children
and employees.”




                                                    10
                          RECOMMENDATIONS
The BIE Security Office should:

   1. Identify and immediately initiate appropriate background checks on all individuals working at
      BIE operated facilities without a security file or without documentation supporting they have:

          a. an FBI fingerprint check report,

          b. undergone a complete background/character investigation, and

          c. had all issues in their background properly adjudicated.

                 DOI’s Response to the Recommendation:

                 “Indian Affairs concurs with the audit recommendations. In the past, BIE requested
                 expedited screening when school bus drivers and cooks unexpectedly left BIE
                 employment. Due to the immediate need to fill those positions when vacated, it
                 appears procedures were not followed, nor were appropriate follow-up procedures
                 established. Effective immediately, CPS will no longer approve requests for
                 expedited screenings and will follow policies that require FBI background
                 fingerprint checks prior to hiring and the results maintained in the applicant’s
                 official personnel file. All requests for expedited screenings will require either:
                 Associate Deputy Director, Assistant Deputy Director, or the BIE Director review
                 and approval. CPS has developed a request form and established written procedures
                 which incorporate some preliminary approval criteria including the minimum
                 requirement of a FBI fingerprint check.”

                 “CPS will immediately initiate expedited background investigations on the six
                 persons identified, by the OIG, as having no record of an investigation. We are
                 attempting to locate the 21 missing files; in the interim we have taken appropriate
                 steps to ensure schools with employees who have missing or incomplete
                 background investigations are properly supervising those employees at all times
                 when they are in contact with the students until their respective investigation is
                 completed and any issues adjudicated.”

                 OIG Analysis of DOI Response:

                 Based on DOI’s response, we consider this recommendation to be resolved but not
                 fully implemented.

   2. For those individuals found at BIE operated schools either without a security file or missing
      any of the three key background investigation elements above, ensure safeguards are in place to




                                                 11
   prevent them from having unsupervised access to students until all required background
   security check elements have been completed.

              DOI’s Response to the Recommendation:

              “Indian Affairs concurs with this recommendation. CPS has notified appropriate
              school officials that these and all other individuals with incomplete background
              investigations must be properly supervised during those times that they have contact
              with students until their respective investigation is completed and any issues
              adjudicated.”

              “On January 28, 2008 the Acting Director, BIE directed the Education Line
              Officers/Grants Officers to conduct a 100 percent review of tribally controlled
              school employees’ folders to ensure that all required background security check
              elements are completed.”

              OIG Analysis of DOI Response:

              Based on DOI’s response, we consider this recommendation to be resolved and
              implemented.

3. Develop and implement procedures for BIE operated schools that ensure:

       a. no individual begins working with students until an FBI fingerprint check has been
          completed and the results reviewed by the BIE Security Office.

       b. all individuals have undergone all phases of the background investigation and been
          properly adjudicated by the BIE Security Office prior to working unsupervised around
          students.

       c. information received after any adjudication is properly re-adjudicated.

              DOI’s Response to the Recommendation:

              “Indian Affairs concurs with this recommendation. Effectively immediately, CPS
              has implemented a policy that at a minimum a FBI fingerprint check is completed,
              results reviewed by BIE Security Office and a determination made that no
              disqualifying information was found prior to an individual starting employment. In
              addition, all issues discovered during the background investigation will be properly
              adjudicated and any negative information received after the initial adjudication will
              be re-adjudicated immediately. Upon receipt of post-adjudication information, the
              responsible Security Specialist will determine whether the new information acquired
              affects the previously adjudicated clearance action. The Specialist will then
              document the final determination on a case summary form and take appropriate
              action in the event the newly acquired information negatively affects a previous
              favorable adjudication.”



                                              12
             OIG Analysis of DOI Response:

             Based on DOI’s response, we consider this recommendation to be resolved and
             implemented.

4. Develop and implement:

      a. a plan to ensure that all individuals working at non-BIE operated facilities have
         undergone complete, appropriate background investigations.

      b. procedures to ensure that all facilities receiving Departmental funding have
         implemented and conducted appropriate background investigations for all individuals
         working with students. As required by the Indian Child Protection and Family Violence
         Prevention Act, ensure the background investigations conducted by the non-BIE
         operated facilities are no less stringent than those implement by BIA / BIE.

             DOI’s Response to the Recommendation:

             “Indian Affairs concurs with this recommendation. The Acting Director, BIE issued
             a memorandum dated January 28, 2008 and directed the Education Line
             Officers/Grant Officers to conduct a 100% review of tribally controlled school
             employee folders to ensure background investigations have been conducted and any
             issues adjudicated. The timeline for completion of this task was March 31, 2008.
             The BIE is awaiting the responses from the Education Line Officers. Where
             deficiencies are identified, BIE, CPS and the tribal entity will work in partnership to
             ensure the fingerprint checks and background investigations are completed and
             adjudicated in a timely manner.”

             “In addition, the BIE has developed a background investigation program checklist,
             for tribally controlled schools, that is designed to determine existence of written
             policies and procedures, implementation of the program, adjudication of
             investigation findings and to ensure that the background investigation programs are
             no less stringent than those implemented by the BIE. The BIE in partnership with
             the CPS has scheduled training for both BIE operated schools and tribally controlled
             schools during the week of May 12-16, 2008. All schools will receive training in
             mandatory requirements for conducting background investigations and adjudicating
             background investigations. All schools will receive two and a half days of training.
             The BIE and CPS will provide technical assistance to tribally controlled schools to
             ensure a background investigation program is fully implemented.”

             OIG Analysis of DOI Response:

             Based on DOI’s response, we consider this recommendation to be resolved but not
             fully implemented.




                                             13
5. Develop and implement procedures to hold non-BIE operated facilities receiving Departmental
   funding accountable to adhere to the minimum background investigation standards.
   Consequences for noncompliance should include suspending, canceling, or revoking
   Departmental funding.

              DOI’s Response to the Recommendation:

              “Indian Affairs concurs with this recommendation. The BIE will develop a policy
              and implement procedures to hold all tribally controlled schools, receiving federal
              funding, responsible for adhering to the minimum background investigation
              standards. All tribally controlled schools will be notified of the new policy and
              procedures and informed of BIE’s intent on ensuring that all background
              investigations and adjudications are completed. They also will be informed that
              failure to comply with the procedures could result in an emergency re-assumption of
              the program.”

              “The Corrective Action Plan (CAP) developed by the BIE, has placed tribally
              controlled schools, included in this review, on notice, that should schools
              knowingly endanger the health, safety or welfare of students, that BIE after
              providing notice and a hearing can rescind such contract or grant agreement and
              resume control or operation of the program, activity, function or service. The
              citation is provided in the CAP for BIE.”

              OIG Analysis of DOI Response:

              Based on DOI’s response, we consider this recommendation to be resolved but not
              fully implemented.




                                             14
                                                                                             Appendix 1



         OBJECTIVE, SCOPE, AND METHODOLOGY
Objective
The objective of our audit was to determine if employees and other individuals who have regular
contact with, or control over, children at Indian education facilities have had the required background
checks.

Scope
The scope of our review was:

        BIE employees working with, or having unsupervised control over, Indian students. This
        includes individuals working at:
               residential facilities (including boarding school, peripheral dorms, etc.),
               education line offices, and
               other locations (including day schools, office of instruction, etc.).

        Non-BIE employees and other individuals working with, or having unsupervised control over,
        Indian students in BIE, grant, contract, and cooperative residential facilities.

We limited our review of non-BIE employees and other individuals to residential facilities because, in
our opinion, these individuals posed the most immediate risk to Indian children.

Methodology
To meet our objective we:

        Gained an understanding of applicable laws and regulations including:
              Public Law 101-630, Indian Child Protection and Family Violence Prevention Act.
              Public Law 101-647, Crime Control Act of 1990.
              Department Manual 383.
              Departmental Manual 441.

        Gained an understanding of internal controls over background investigations of employees and
        performed tests to ensure they were conducted. Tests for BIE operated schools were conducted
        on a statistical sample of BIE employees. Tests for non-BIE operated schools were conducted
        on a non-statistical sample of employees at 18 facilities selected for review (See Appendix 5).
        Our conclusions about these internal controls are included in our findings presented in the
        report. Specific controls tested included:
                FBI fingerprint checks.
                Other law enforcement checks.
                Character background investigations.



                                                   15
                                                                                               Appendix 1


      Performed a statistical sample of BIE employees. Specifically, we:
             Obtained a universe from the Federal Personnel Payroll System as of May 2007.
             Segregated the universe into groups based on the individual’s access to children and
             hire date ranges.
             Selected statistical samples, based on professional auditor judgment, with:
                 o 95 percent confidence levels.
                 o 3 percent tolerable deviation rates.
                 o 1 percent expected deviation rates.
             Reviewed employee security files for each sample employee to determine whether
             appropriate background investigations were conducted.
             Followed-up with BIE Security Office personnel.
             Summarized problems identified and projected the results to the universe of BIE
             employees. Because we followed a statistical sample based on random selection, our
             sample is only one of a large number of samples that we might have drawn. Since each
             sample could have provided a different estimate, we express our confidence in the
             precision of our samples’ results as 95 percent. As a result, we are 95 percent confident
             that the error rate in the universe is no more than our estimates.

      Performed a non-statistical sample of non-BIE employees and other individuals. Specifically,
      we:
             Created a list of locations where residential facilities were located.
             Non-statistically selected the four states with the largest concentration of residential
             facilities: Arizona, New Mexico, Oklahoma, and South Dakota.
             Identified the locations of each residential facility for each state.
             Non-statistically selected individual residential facilities for site visits based on location
             and facility type, designed to ensure we visited a diverse selection of facilities while
             maximizing the number of facilities visited in an efficient and effective manner.
             For each residential facility we:
                 o Obtained a universe of employees and other individuals having contact with, or
                      control over, students.
                 o Randomly selected a non-statistical sample of approximately 20 percent of
                      employees and other individuals.
                 o Reviewed background investigation documents for each sample person to
                      determine whether appropriate background investigations were conducted.
                 o Interviewed appropriate individuals on residential facility policies and
                      procedures for conducting background investigations.
                 o Followed-up with BIE Security Office personnel as appropriate.
             Summarized problems identified. Problems identified in this non-statistical sample
             cannot be projected to the universe of non-BIE operated facilities. However, they
             provide a useful insight into activities at non-BIE operated facilities.

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Work was performed from April 2007 to December 2007.




                                                   16
                                                                                                                    Appendix 2



                   INVESTIGATIONS OF BIE EMPLOYEES
                                                      Sample          Missing                           Material
            Sample                   Universe *                                       Estimate                            Estimate
                                                       Size            Files                           Errors ***
Residential Facility Employees
                                         484            175           0    0.00%           0          155    91.53%           443
hired since January 1, 2004
Residential Facility Employees
hired between January 1, 1998            491            177           0    0.00%           0          119    71.89%           352
and December 31, 2001
Residential Facility Employees
hired before January 1, 2002            1,398           186           0    0.00%           0          137    78.54%         1,097
(minus duplicates)
Education Line Office
Employees hired since                     39             39           0    0.00%           0          35     89.74%           35
January 1, 2004
Education Line Office
Employees hired between
                                          36             36           0    0.00%           0          19     52.78%           19
January 1, 1998 and
December 31, 2001
Education Line Office
Employees hired before
                                         163            119           1    2.45%           4          78     69.94%           113
January 1, 2002 (minus
duplicates)
Other Employees ** hired since
                                         298            163           5    5.03%          14          143    92.95%           272
January 1, 2004
Other Employees ** hired
between January 1, 1998 and              242            145           5    5.79%          14          96     72.73%           172
December 31, 2001
Other Employees ** hired
before January 1, 2002 (minus            851            159         10     9.99%          85          95     69.68%           586
duplicates)
                         Totals3        4,002          1,199        21    2.37%          117          877    76.19%         3,089

    * We did not include the 499 BIE employees hired between January 1, 2002, and December 31, 2003
    (of the total 4,501 BIE employees) in the possible samples because these employees were reviewed in
    our March 2004 audit and we did not want to report the same errors.
    ** Other employees included BIE employees working in day schools, administrative offices, etc.
    *** The BIE Security Office files contained more than one material error for 333 of the 877 sample
    employee files with material errors. See Appendix 6 for a complete list of material errors.

    3
      Due to the nature of estimating associated with a statistical sample, the totals cannot balance both across and down.
    Therefore, we used the actual 95 percent confidence level deviation rate in the total (versus using an average) but totaled
    the individual sample estimates.



                                                                 17
                                                                                                                    Appendix 3



                   INVESTIGATIONS OF BIE EMPLOYEES
                      HIRED SINCE JANUARY 1, 2004
                                                      Sample          Missing                           Material
            Sample                    Universe                                        Estimate                            Estimate
                                                       Size            Files                            Errors **
Residential Facility Employees
hired since January 1, 2004              484            175           0    0.00%           0          155    91.53%          443

Education Line Office
Employees hired since                     39             39           0    0.00%           0          35     89.74%           35
January 1, 2004
Other Employees * hired since
January 1, 2004                          298            163           5    5.03%          14          143    92.95%          272

                          Totals4        821            377           5   2.31%           14          333    91.35%          750


    * Other employees included BIE employees working in day schools, administrative offices, etc.
    ** The BIE Security Office files contained more than one material error for 240 of the 333 sample
    employee files with material errors. See Appendix 6 for a complete list of material errors.




    4
      Due to the nature of estimating associated with a statistical sample, the totals cannot balance both across and down.
    Therefore, we used the actual 95 percent confidence level deviation rate in the total (versus using an average) but totaled
    the individual sample estimates.



                                                                 18
                                                                                          Appendix 4



                              BIE FACILITIES VISITED
      Facility Name                                      Location           Type

1.    Flandreau Indian Boarding School                   Flandreau, SD      Boarding School
2.    Hunters Point Boarding School                      St. Michaels, AZ   Boarding School
3.    Many Farms High School                             Many Farms, AZ     Boarding School
4.    Chinle Boarding School                             Many Farms, AZ     Boarding School
5.    Dennehotso Boarding School                         Dennehotso, AZ     Boarding School
6.    Kayenta Community School                           Kayenta, AZ        Boarding School
7.    Tuba City Boarding School                          Tuba City, AZ      Boarding School
8.    Chi Chil'Tah (Jones Ranch Community School)        Vanderwagen, NM    Boarding School
9.    T'iists oozi bi'olta                               Crownpoint, NM     Boarding School
10.   Lake Valley Navajo                                 Crownpoint, NM     Boarding School
11.   Mariano Lake Community School                      Crownpoint, NM     Boarding School
12.   Wingate Elementary School                          Wingate, NM        Boarding School
13.   Wingate High School                                Wingate, NM        Boarding School
14.   Tohaali' Community School                          Newcomb, NM        Boarding School
15.   Pueblo Pintado Community School                    Cuba, NM           Boarding School




                                                    19
                                                                                                Appendix 5



                    MATERIAL ERRORS AT NON-BIE
                    RESIDENTIAL FACILITIES VISITED
                                                              Sample     Did Not Interview    Did Not Interview
          Sample Residential Facilities           Universe     Size         Employers            References
Sequoyah High School                                    111         22       5         23%        8         36%
Chickasaw Children's Village                             27          5       5        100%        5        100%
Eufaula Dormitory                                        41          8       8        100%        8        100%
Jones Academy                                            82         15      15        100%       15        100%
Crow Creek Reservation School                            98         20      20        100%       20        100%
Pierre Indian Learning Center                           107         18       9         50%       17         94%
Wide Ruins Community School                              46          9       5         56%        9        100%
Greasewood Springs Community School                      66         11      10         91%       11        100%
Rough Rock Community School                             180         30      30        100%       30        100%
Pinon Community School                                   43          9       0           0%       0           0%
Shonto Preparatory School                               181         36      14         39%       15         42%
Greyhills Academy High School                           165         33      16         48%       33        100%
Pine Hill School                                        100         13      11         85%       10         77%
Ch'Ooshgai Community School                             111         21      20         95%       20         95%
Jicarilla Dormitory                                      14          3       3        100%        3        100%
Shiprock Reservation Dormitory                           12          7       6         86%        7        100%
Santa Fe Indian School                                  249         30      30        100%       30        100%
Cheyenne Eagle Butte School                              26          5       5        100%        5        100%
                                        TOTAL         1,659       295      212         72%      246         83%




                                                Continued Next Page




                                                        20
                                                                                               Appendix 5




                                                                        Other Local Law         State Law
                                                      Local Law          Enforcement          Enforcement
                                                    Enforcement           Checks Not           Checks Not
          Sample Residential Facilities           Check Not Initiated       Initiated            Initiated
Sequoyah High School                                0              0%    0              0%    0              0%
Chickasaw Children's Village                        1            20%     1             20%    1             20%
Eufaula Dormitory                                   8           100%     8            100%    5             63%
Jones Academy                                      15           100%    15            100%   15            100%
Crow Creek Reservation School                      13            65%    20            100%   13             65%
Pierre Indian Learning Center                       0              0%    0              0%    0              0%
Wide Ruins Community School                         9           100%     No Other Local       0              0%
Greasewood Springs Community School                 0              0%    No Other Local      11            100%
Rough Rock Community School                         3            10%     3             10%    2              7%
Pinon Community School                              1            11%     No Other Local       7             78%
Shonto Preparatory School                           0              0%   15             42%    2              6%
Greyhills Academy High School                       7            21%     1              3%    1              3%
Pine Hill School                                    6            46%     0              0%    1              8%
Ch'Ooshgai Community School                         0              0%    3             14%   21            100%
Jicarilla Dormitory                                 2            67%     3            100%    3            100%
Shiprock Reservation Dormitory                      1            14%     7            100%    7            100%
Santa Fe Indian School                              3            10%     3             10%    3             10%
Cheyenne Eagle Butte School                         5           100%     5            100%    5            100%
                                          TOTAL    74            25%    84             28%   97             33%




                                              Continued Next Page




                                                        21
                                                                                            Appendix 5




                                                                                               Did Not
                                                                                            Adjudicate FBI
                                           No FBI       Of Conducted,      Of Conducted,     Fingerprint
                                         Fingerprint    FBI Fingerprint    Number of FBI     Checks with
                                            Check        Check Dated        Checks with        Criminal
     Sample Residential Facilities       Conducted      after Hire Date   Criminal Record      Records
Sequoyah High School                      1        5%     19        90%         0     0%     No Records
Chickasaw Children's Village              1       20%      4       100%         0     0%     No Records
Eufaula Dormitory                         8     100%    No FBI Checks      No FBI Checks    No FBI Checks
Jones Academy                            15     100%    No FBI Checks      No FBI Checks    No FBI Checks
Crow Creek Reservation School             8       40%     11        92%         7    58%         7    100%
Pierre Indian Learning Center             0        0%     11        61%         4    22%         0      0%
Wide Ruins Community School               0        0%      9       100%         1    11%      1      100%
Greasewood Springs Community School       0        0%      7        64%         2    18%         2    100%
Rough Rock Community School              30     100%    No FBI Checks      No FBI Checks    No FBI Checks
Pinon Community School                    7       78%      2       100%         1    50%         1    100%
Shonto Preparatory School                 0        0%     28        78%         6    17%         6    100%
Greyhills Academy High School            16       48%     14        82%         1     6%      1      100%
Pine Hill School                          1        8%     12       100%         2    17%         2    100%
Ch'Ooshgai Community School              21     100%    No FBI Checks      No FBI Checks    No FBI Checks
Jicarilla Dormitory                       1       33%      2       100%         0     0%     No Records
Shiprock Reservation Dormitory            2       29%      4        80%         3    60%         2     67%
Santa Fe Indian School                   15       50%     11        73%         4    27%         4    100%
Cheyenne Eagle Butte School               0        0%      5       100%         0     0%     No Records
                                TOTAL   126       43%    139        83%        31    18%        26     84%




                                          Continued Next Page




                                                   22
                                                                                Appendix 5




                                                                 Did Not Properly
                                              Did Not Conduct     Adjudicate the
                                                 Appropriate      Investigations
         Sample Residential Facilities         Investigations       Conducted
Sequoyah High School                              6        27%     15        100%
Chickasaw Children's Village                      5       100%   No Investigations
Eufaula Dormitory                                 8       100%   No Investigations
Jones Academy                                    15       100%   No Investigations
Crow Creek Reservation School                    20       100%   No Investigations
Pierre Indian Learning Center                     3        17%      9          60%
Wide Ruins Community School                       9       100%   No Investigations
Greasewood Springs Community School              11       100%   No Investigations
Rough Rock Community School                      30       100%   No Investigations
Pinon Community School                            9       100%   No Investigations
Shonto Preparatory School                        19        53%     17        100%
Greyhills Academy High School                    25        76%      8        100%
Pine Hill School                                  8        62%      4          80%
Ch'Ooshgai Community School                      21       100%   No Investigations
Jicarilla Dormitory                               3       100%   No Investigations
Shiprock Reservation Dormitory                    7       100%   No Investigations
Santa Fe Indian School                           22        73%      8        100%
Cheyenne Eagle Butte School                       5       100%   No Investigations
                                      TOTAL     226        77%     61          90%




                                        23
                                                                                                          Appendix 6



               MATERIAL ERRORS IN BIE EMPLOYEE
                  SECURITY FILES REVIEWED
                                                                                          Sample            Estimate
                                                                                        Employees         to Universe
Total Number of BIE Employees as of May 2007                                           4,501
BIE Employees' Security Office Files Statistically Selected                            1,199 26.64%
Unsigned or Missing Screening Questionnaires5                                             15     5.48%             44
Screening Questions Signed after the Hire Date or Undated5                                49    15.35%            126
Prior Employers not Interviewed5                                                          14     5.12%             42
Personal References not Interviewed5                                                      22     7.55%             61
Local Law Enforcement Check Not Initiated5                                                14     5.12%             42
Other Local Law Enforcement Checks Not Initiated5                                         57    17.54%            144
State Law Enforcement Check Not Initiated5                                                40    12.79%            105
FBI Fingerprint Check not Conducted5                                                      17     6.09%             50
When Conducted (771), FBI Fingerprint Report Dated after Hire                            181    53.57%            413
Date
      "Emergency" Screening sent by BIE Security Office to School                         97 58.35%               240
      "Authorizing" Employee to be Hired before FBI Fingerprint
      Check Completed (estimated on the 413 above)
FBI Fingerprint Reports (771) Indicating a Criminal Record                                35 11.80%                90
      Employees with Criminal Records on their FBI Fingerprint                            22 73.33%                66
      Check Hired Before their FBI Fingerprint Report was Received
      (estimated on the 90 above)
FBI Fingerprint Reports With a Criminal Record (a universe of 90)                           8 34.44%               31
Not Adjudicated
Provisional Hiring Letter not Sent to School5                                             45 14.13%               116
No OPM Background Investigation Report Received5                                          14 5.12%                 42
OPM Background Investigation Report is more than 5 Years Old6                            473 60.01%             1,908
Final Adjudication of OPM Background Investigation not Completed                         211 19.19%               767
Of Adjudications completed, Number of Not Favorable                                        3 0.57%                 22
Adjudications
Permanent Hire Letter not Sent to School5                                                236 65.65%               538
Law Enforcement Checks Received After Adjudication5                                       28 9.26%                 76
Appropriate Action was not Taken on Checks Received After                                  4 26.32%                20
Adjudication (a universe of 76)

5
    This test only performed for the 821 BIE employees hired since January 1, 2004. We sampled 377.
6
    This test only performed for the 3,181BIE employees hired prior to January 1, 2002. We sampled 822.



                                                            24
                                                                                Appendix 6




Range of Time from Date of Hire to Receipt OPM Investigation Report5    0 to 928 days
       Average Time                                                          122
Range of Time Taken to Adjudicate Initial OPM Investigation Reports
Received5                                                               0 to 889 days
       Average Time                                                          154
Range of Time Taken to Adjudicate OPM 5 Year Re-Investigation
Reports Received6                                                        0 to 5,055
       Average Time                                                         242
Range of Time to Notify School of Adjudication Decisions Made5
  (when the Schools were Notified)                                      0 to 441 days
       Average Time                                                           49

Total With OPM Investigation Report, Adjudication Decision, and
Notification of Investigation Results sent to School5                       121     32%
       Range of Time in Background Investigation Process               29 to 1,112 days
       Average Time in Background Investigation Process                       269




                                           25
                                                                    Appendix 7




        ACRONYMS AND ABBREVIATIONS


BIA      Bureau of Indian Affairs
BIE      Bureau of Indian Education
CNACI    Child Care Agency National Check with Written Inquires
CPS      Office of Human Capital Management, Center for Personnel Security
DOI      Department of the Interior
FBI      Federal Bureau of Investigation
NPF      Notices of Potential Findings
OIG      Office of Inspector General




                                 26
                                                Appendix 8




STATUS OF AUDIT RECOMMENDATIONS



   Recommendations            Status

                          Resolved but Not
          1
                           Implemented

          2          Resolved and Implemented


          3          Resolved and Implemented

                          Resolved but Not
          4
                           Implemented

                          Resolved but Not
          5
                           Implemented




                     27
                      Appendix 9




DEPARTMENT RESPONSE




         28
     Appendix 9




29
     Appendix 9




30
     Appendix 9




31
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
